No. 21-144
IN THE

~upreme Qtourt of tbe fflniteb ~tates
SEATTLE'S UNION GOSPEL MISSION,

Petitioner,

v.
MATTHEWS. WOODS,

Respondent.
AFFIDAVIT OF SERVICE
nd

I HEREBY CERTIFY that all parties required to be served, have been served, on this 2
day of September, 2021, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing BRIEF OF AMERICAN ASSOCIATION OF CHRISTIAN
SCHOOLS et al. AS AMICI CURIAE IN SUPPORT OF PETITIONER by placing
said copies in the U.S. mail, first class postage prepaid, addressed as listed below.
John J. Bursch
Alliance Defending Freedom
440 1st Street, NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adfleg al.org

Jennifer Denise Diskin
QLaw Foundation of Washington
101 Yesler Way
Suite 300
Seattle, WA 98104
(206) 483-2725
denise@qlawfou ndation.org

NS. ADAMS, LEGAL & COMMERCIAL PRINTERS

1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 34 7-8203

District of Columbia
nd
Signed and sworn to (or affirmed) before me on 2 day of September, 2021.

N PIERANGELI

NOTARY PUBLIC, DISTRICT OF COLUMBIA

My Commission Expires June 14, 2025.

